1a
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

JERIEL EDWARDS,
Plaintiff - Appellant,
v.
CITY OF MUSKOGEE,
OKLAHOMA, a municipal
corporation; STEVEN
HARMON; BOBBY LEE;
GREG FOREMAN;
DILLON SWAIM,

No. 20-7000
(D.C. No.
6:18-CV-00347-SPS)
(E.D. Okla.)

Defendants - Appellees.
-----------------------------------------------------------------------

ORDER AND JUDGMENT*
-----------------------------------------------------------------------

(Filed Jan. 5, 2021)
Before HARTZ, McHUGH, and CARSON, Circuit
Judges.
----------------------------------------------------------------------* After examining the briefs and appellate record, this panel
has determined unanimously that oral argument would not materially assist in the determination of this appeal. See Fed. R.
App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore ordered submitted without oral argument. This order and judgment
is not binding precedent, except under the doctrines of law of the
case, res judicata, and collateral estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1
and 10th Cir. R. 32.1.

2a
Jeriel Edwards appeals from a district-court order
granting summary judgment to City of Muskogee Police Officers Greg Foreman, Steven Harmon, Bobby
Lee, and Dillon Swaim on his excessive-force claims
under 42 U.S.C. § 1983. Exercising jurisdiction under
28 U.S.C. § 1291, we affirm.
BACKROUND1
Shortly after 10 p.m. on October 25, 2016, Officer
Foreman was on patrol in his vehicle when he was
flagged down by a man concerned about a car stopped
in a restaurant’s driveway. According to the man, the
car had been there for about an hour and the driver
was “just out of it.” Aplt. App. at 113 (internal quotation marks omitted).
Officer Foreman drove up behind the car, the front
of which was “sticking partially out into the street.” Id.
1

In determining whether qualified immunity applies, “we ordinarily accept the plaintiff ’s version of the facts—that is, the
facts alleged.” Redmond v. Crowther, 882 F.3d 927, 935 (10th Cir.
2018) (internal quotation marks omitted). But those “facts must
find support in the record.” Id. (internal quotation marks omitted). Thus, if the plaintiff ’s “version of the facts is blatantly contradicted by the record, so that no reasonable jury could believe
it, then we should not adopt that version of the facts.” Id. (internal
quotation marks omitted). In recounting the background facts of
this case, we rely on video footage showing Edwards’s encounter
with police, the transcript of that encounter, the officers’ affidavits and reports, and the state-court records. In opposing summary judgment in the district court, Edwards submitted no
evidence. Thus, to the extent Edwards asserts a factual version
that conflicts with this universe of evidence, we do not adopt his
version.

3a
at 98. He exited his patrol vehicle, approached the car’s
driver-side door, and asked the driver several times,
“How’s it going,” “Let me see your I.D.,” and “Can you
talk?” Id. at 113-14 (internal quotation marks omitted). The driver was barely responsive. For example,
Officer Foreman had to instruct him several times to
“put [the] car in park” before he complied. Id. at 98.
Officer Foreman believed, based on his training
and experience, that the driver was under the influence of drugs or alcohol. In particular, he suspected
that the driver “was under the influence of PCP because [of ] the way he was acting.” Id. at 136.2 He soon
recognized the driver as Edwards, whom he had encountered previously. He radioed the dispatcher, asking for a record check on Edwards. Edwards found his
wallet and gave his ID to Officer Foreman. Throughout
their interaction, Edwards “kept putting his hands in
and out of his pants pockets.” Id. at 98.
Officer Foreman decided to arrest Edwards for
driving under the influence. He ordered him to get out
of the car and to stop putting his hands in his pockets.
Officer Harmon arrived on the scene and approached
to assist.
2

“Officers at the Muskogee Police Department are instructed
that non-compliant suspects under the influence of PCP are extremely dangerous because they are unpredictable, have enhanced physical strength and endurance, and are impervious to
pain.” Aplt. App. at 106. They are also told that such individuals
can experience “excited delirium when they are involved in extended fights or struggles, and officers are instructed to get them
into custody as quickly as possible.” Id.

4a
Officer Foreman opened the driver-side car door
while Edwards unbuckled his seat belt and placed his
wallet on the console. Edwards still had difficulty following Officer Foreman’s instructions. When Edwards
stood up out of the car, Officer Foreman told him to face
away with his hands behind his back. Edwards initially faced away, but both officers had trouble handcuffing Edwards, as he did not keep his arms behind
him. Officer Harmon repeated several times, “Hands
behind your back.” Id. at 116 (internal quotation marks
omitted). Officer Foreman radioed for assistance.
From this point forward, it would take officers almost four minutes to handcuff Edwards, who is 6’1” tall
and weighed 225 pounds. Based on his training and experience, Officer Foreman thought it was “safer to take
a non-compliant suspect who is actively resisting to
the ground when attempting to subdue and handcuff
[him].” Id. at 99. He therefore ordered Edwards to “get
on the ground.” Id. at 116 (internal quotation marks
omitted). When Edwards did not comply, the officers
forced him to the ground, where they continued to
struggle to handcuff him, attempting to pull his arms
behind his back while he faced downward and kept his
arms in front of him. Officer Foreman said that he
“could not control . . . Edward’s [sic] hands and arms,”
as “[h]e was extremely strong.” Id. at 99.
Officer Harmon similarly thought that Edwards
possessed “extraordinary strength.” Id. at 103. He delivered “three closed fist punches to [Edwards’s] rib
area in the attempt to get [him] to comply that had
no effect.” Id. at 144. Edwards asked, “Why’re you

5a
punching me?” Id. at 117 (internal quotation marks
omitted). The officers continued ordering Edwards to
put his hands behind his back.
Officer Harmon positioned himself briefly on Edwards’s back while he continued trying to pull Edwards’s arms behind him. Edwards kept asking,
“Why’re you punching me, sir?” id. at 117 (internal quotation marks omitted), but the videos do not indicate
that any further blows were delivered. The officers told
him, “Stop resisting” and “Quit resisting.” Id. at 118 (internal quotation marks omitted). Edwards responded, “I
ain’t resisting,” although he did not comply with their
demands. Id. (internal quotation marks omitted). During the struggle Officer Foreman “could smell an odor
[he] associated with persons under the influence of
PCP.” Id. at 99.
Unable to handcuff Edwards, Officer Harmon said,
“Okay . . . taze him.” Id. at 118 (ellipsis in original, internal quotation marks omitted). As Edwards was lying in the parking lot, Officer Foreman “deployed [his]
Taser into . . . Edwards[’s] back.” Id. at 99. When that
failed to elicit compliance, he tried “stapling”—that is,
“mov[ing] the connecting wires onto . . . Edwards[’s]
calf[ ] in an effort to obtain neuromuscular incapacitation.” Id. Edwards yelled, “Hey!!” and momentarily
stopped struggling as Officer Harmon worked near his
head to secure his arms. Id. at 118 (internal quotation
marks omitted). But Edwards resumed struggling with
Officer Harmon while Officer Foreman repeatedly directed him to “[p]ut [his] hands behind [his] back,”
id. at 118 (internal quotation marks omitted), and

6a
“cycl[ed] the [Taser] device through 2 five second cycles” id. at 99. Three times, Edwards responded, “My
hands behind my back!” Id. at 118 (internal quotation
marks omitted). But each time his hands were still in
front of him or underneath him as he attempted to rise
to his knees. Officer Foreman commented that the
Taser was not affecting Edwards, and Officer Harmon
agreed.
At this point, Edwards had risen to his hands and
knees. Attempting to stand up, he reached around the
back of Officer Harmon’s neck and asked, “Why’re you
doing this shit to me?” Id. at 118 (internal quotation
marks omitted). Edwards was soon on his feet but bent
forward as Officer Harmon tried to push his upper
body toward the ground. Officer Foreman fell forward
but was able to push Edwards backward onto his buttocks, against the driver-side compartment of Edwards’s car and the open car door.
Another officer arrived and joined the effort. Officer Foreman told Edwards twice more to stop resisting. Edwards said he was not resisting, but he grabbed
the arm of Officer Foreman, who struck Edwards’s arm
with his flashlight and yelled “Let go of me!!!” Id. at
119 (internal quotation marks omitted).
Lt. Lee arrived as the other officers were engaged
with Edwards at his open car door. He “slid in behind
[Edwards, who was in a seated position,] and applied a
bilateral neck restraint.”3 Id. at 106. Within about 20
3

This type of “restraint momentarily disrupts the carotid
[artery] blood flow to the brain” in order to make a person “lose

7a
seconds, Officer Foreman was able to handcuff one of
Edwards’s wrists.
More officers began arriving, including Officer
Swaim. He “grabbed [Edwards’s] other arm and helped
the other officers force [Edwards’s] other wrist into . . .
the handcuffs.” Id. at 109. One of the officers ordered
Edwards to “Relax . . . relax . . . relax!” Id. at 119 (ellipses in original; internal quotation marks omitted).
Edwards was soon fully handcuffed and the officers began backing away. Two officers remained with
him, however, holding him in place. Officer Harmon
asked, “Anybody need EMS?” Id. at 120 (internal quotation marks omitted). Officer Foreman responded,
“We need EMS for [Edwards].” Id. (internal quotation
marks omitted). Edwards asked, “What are you guys
doing?” Id. (internal quotation marks omitted). Lt. Lee
called for EMS [Aplt. App. at 142] and another officer
told Edwards he was going to jail for having “fought
the police . . . intoxicated.” Id. (ellipsis in original; internal quotation marks omitted).

consciousness for a few seconds.” Aplt. App. at 106. Edwards
claims that Officer Foreman also applied a neck restraint; and
Officer Foreman indicated in his police report that after striking
Edwards with his flashlight, he “eventually had to put [Edwards]
in a neck restraint in an attempt to control him.” Id. at 136. But
even if both Officer Foreman and Lt. Lee used a neck restraint, it
would not change the outcome of this appeal. There is no evidence
that the neck restraint was applied in an improper manner or
that Edwards suffered any long-term injury from the restraint;
nor has Edwards argued that use of this type of restraint is per
se excessive force.

8a
Officer Swaim sat Edwards up and “noticed a
strong chemical smell.” Id. at 109. An inventory search
of Edwards’s car revealed two Xanax tablets and a bottle containing a liquid that smelled like PCP.
EMS arrived and evaluated Edwards, determining
that his “vitals were fine.” Id. at 142. Officer Foreman
then took Edwards to the hospital for a blood test and
to get “medically cleared” for jail. Id. at 106. The hospital admitted Edwards because he had become “unresponsive.” Id. at 136. As Officer Foreman later learned,
Edwards had suffered a broken nose during his arrest.
Edwards was charged in state court with driving
under the influence of drugs (a felony), resisting an officer (a misdemeanor), and possessing a controlled
dangerous substance (two felony counts—PCP and
Xanax). Edwards pleaded no contest4 and was sentenced.
In 2018, Edwards filed this civil-rights action
against the City of Muskogee and Officers Foreman,
Harmon, Lee, and Swaim. He claimed that (1) the individual officers were liable for using excessive force
under the Fourth Amendment, as he had provided no
resistance; and (2) the City was liable for excessive
force under Oklahoma’s Constitution.
The district court dismissed Edwards’s claim
against the City, and the case proceeded against the
4

Although the Amended Judgment and Sentence states that
Edwards entered a guilty plea, that statement appears to be a
mistake.

9a
individual defendants, who moved for summary judgment on the basis of qualified immunity. The district
court granted the motion, concluding that Edwards
had not shown the violation of a constitutional right or
that the asserted right was clearly established.
DISCUSSION
I.

Standards of Review

Ordinarily, “[w]e review a grant of summary judgment de novo.” Savant Homes, Inc. v. Collins, 809 F.3d
1133, 1137 (10th Cir. 2016). Summary judgment is required “if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Id. (internal quotation marks omitted).
But when a defendant asserts a qualified-immunity defense, our review “differs from that applicable to
review of other summary judgment decisions.” Redmond v. Crowther, 882 F.3d 927, 935 (10th Cir. 2018)
(internal quotation marks omitted). “A defendant’s motion for summary judgment based on qualified immunity imposes on the plaintiff the burden of showing both
(1) a violation of a constitutional right; and (2) that the
constitutional right was clearly established at the time
of the violation.” Burke v. Regalado, 935 F.3d 960, 1002
(10th Cir. 2019) (internal quotation marks omitted).
Only if the “plaintiff meets this heavy burden” must
“the defendant . . . prove that there are no genuine
disputes of material fact and that he is entitled to

10a
judgment as a matter of law.” Puller v. Baca, 781 F.3d
1190, 1196 (10th Cir. 2015).
II.

Excessive Force

The Fourth Amendment’s reasonableness standard governs “[a]ll claims that law enforcement officers have used excessive force—deadly or not—in the
course of an arrest, investigatory stop, or other seizure
of a free citizen.” Graham v. Connor, 490 U.S. 386, 395
(1989) (emphasis and internal quotation marks omitted). Thus, we employ “a standard of objective reasonableness, judged from the perspective of a reasonable
officer on the scene, rather than with 20/20 vision of
hindsight.” Pauly v. White, 874 F.3d 1197, 1215 (10th
Cir. 2017) (internal quotation marks omitted). “The
right to make an arrest . . . necessarily carries with it
the right to use some degree of physical coercion . . . to
effect it.” Lundstrom v. Romero, 616 F.3d 1108, 1126
(10th Cir. 2010) (internal quotations marks omitted).
But to assess the propriety of the coercion under specific facts, we “balance the nature and quality of the
intrusion on the individual’s Fourth Amendment interests against the importance of the governmental interests alleged to justify the intrusion,” id. (internal
quotation marks omitted), paying “careful attention
to the facts and circumstances of each particular
case, including [1] the severity of the crime at issue,
[2] whether the suspect poses an immediate threat to
the safety of the officers or others, and [3] whether
he is actively resisting arrest or attempting to evade

11a
arrest by flight,” Graham, 490 U.S. at 396 (emphasis
and internal quotation marks omitted).5
A. Severity of Edwards’s Suspected Crime
Officer Foreman suspected that Edwards was
driving under the influence of PCP. Although “minor
non-violent offenses clearly weigh against the objective
need to use much force against [an arrestee],” Mglej v.
Gardner, 974 F.3d 1151, 1168 (10th Cir. 2020), Edwards’s suspected crime was a felony, which generally
tilts the first Graham factor against the arrestee, see
Est. of Valverde ex rel. Padilla v. Dodge, 967 F.3d 1049,
1061 n.2 (10th Cir. 2020). Moreover, while “our cases
have not considered the nature of a felony in determining that it is a serious offense under the first Graham
factor,” id., we note that Muskogee police officers are
instructed that individuals under the influence of PCP
can be extremely dangerous.

5

Although § 1983 liability must ordinarily be “traceable to a
defendant-official’s own individual actions,” Pahls v. Thomas, 718
F.3d 1210, 1225 (10th Cir. 2013) (internal quotation marks omitted), an “individualized analysis” is not required in an excessiveforce case where, as here, “all Defendants actively participated in
a coordinated use of force,” and they were “engaged in a group
effort.” Est. of Booker v. Gomez, 745 F.3d 405, 421-22 (10th Cir.
2014). Although Lt. Lee and Officer Swaim were not engaged with
Edwards for the same amount of time as Officers Foreman and
Harmon, a jury might find that they all participated in a coordinated use of force against Edwards to handcuff him. Thus, “we
will consider the officers’ conduct in the aggregate.” Pauly, 874
F.3d at 1214.

12a
We conclude that the first Graham factor—severity of the crime—weighs against Edwards.
B. Whether Edwards Posed an Immediate
Threat to Officer Safety
“The second Graham factor, whether the suspect
posed an immediate threat to the safety of the officers
or others[,] is undoubtedly the most important.” Emmett v. Armstrong, 973 F.3d 1127, 1136 (10th Cir. 2020)
(internal quotation marks omitted). “[A]n officer may
use increased force when a suspect is armed, repeatedly ignores police commands, or makes hostile motions towards the officer or others.” Mglej, 974 F.3d at
1168 (internal quotation marks omitted).
Here, officers employed considerable force against
Edwards. They forced him to the ground, delivered
three closed-fist punches to his ribs, tasered and stapled him, struck him with a flashlight, and placed him
in a neck restraint, all while wrestling with him to gain
control of his arms and force his wrists into handcuffs.
He suffered a broken nose.
Nevertheless, we cannot say the force used was
unreasonable from the perspective of an officer on the
scene concerned about safety. Edwards moved his
hands in and out of his pockets while Officer Foreman
initially interacted with him, and he ignored officers’
repeated commands to put his hands behind his back.
He struggled with officers, at times grabbing them and
attempting to rise to his feet. He had an imposing
physical stature and exhibited both incoherence and

13a
PCP-enhanced effort and imperviousness to pain. Significantly, it took multiple officers engaged in a prolonged struggle with him to place him in handcuffs.
Edwards contends that officers “did not give [him]
sufficient time to obey the command to put his hands
behind his back,” and that “prior to the initial takedown
[he] showed no sign of resistance, disobedience, or violence.” Aplt. Opening Br. at 16. But the videos show Edwards moving his arms and body as Officers Foreman
and Harmon first attempted to handcuff him. And during this handcuffing attempt, Officer Foreman recognized the need for assistance and called for back up.
“The calculus of reasonableness must embody allowance for the fact that police officers are often forced to
make split-second judgments—in circumstances that
are tense, uncertain, and rapidly evolving—about the
amount of force that is necessary in a particular situation.” Graham, 490 U.S. at 396-97. To the extent that
Edwards claims he was “subdued” by the time Officer
Harmon delivered the three closed-fist punches to his
ribs, Reply Br. at 9, the record contradicts that claim.
We conclude that the second Graham factor—
threat to officer safety—weighs against Edwards.
C. Whether Edwards Actively Resisted Arrest
Edwards characterizes his effort to avoid being
handcuffed as no more than passive or minimal resistance. For the same reasons we determined that the
second Graham factor weighs against Edwards, we conclude that the third Graham factor—active resistance

14a
to arrest—also weighs against him. The record contradicts Edwards’s portrayal of limited resistance. Officers Foreman and Harmon were unable to handcuff him
even after tasing and stapling him. Indeed, Edwards
attempted to stand up while continuing to struggle
with both officers. And after a third officer joined the
struggle, Edwards still managed to grab Officer Foreman by the arm. It took several additional officers
working together to force Edwards’s wrists into the
cuffs while Lt. Lee employed a neck restraint on Edwards before he was finally subdued. No reasonable
jury could conclude that Edwards was not actively resisting arrest from the moment Officer Foreman first
tried to handcuff him until his eventual handcuffing by
multiple police officers.
Because all three Graham factors weigh against
Edwards, his excessive-force claim fails, and the defendants are entitled to summary judgment in the absence of a constitutional violation. See Puller, 781 F.3d
at 1196 (“Failure on either element [of the qualifiedimmunity analysis] is fatal to the plaintiff ’s claims.”);
see, e.g., Hinton v. City of Elwood, 997 F.2d 774, 781-82
(10th Cir. 1993) (qualified immunity available based on
no constitutional violation where officers wrestled
plaintiff to the ground and used a stun gun on him for
“actively and openly resisting [their] attempts to handcuff him”).

15a
CONCLUSION
We affirm the district court’s judgment.
Entered for the Court
Harris L Hartz
Circuit Judge

16a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF OKLAHOMA
JERIEL EDWARDS,
Plaintiff,
v.
STEVEN HARMON,
BOBBY LEE, GREG
FOREMAN, and
DILLON SWAIM,
Defendants.

)
)
)
)
)
)
)
)
)
)

Case No.
CIV-18-347-SPS

OPINION AND ORDER
(Filed Dec. 16, 2019)
This case arises out of an encounter between Jeriel
Edwards and police officers with the City of Muskogee
Police Department. The Plaintiff sued a number of individuals and entities, including the remaining four
Defendants in the case: Steven Harmon, Bobby Lee,
Greg Foreman, and Dillon Swaim. The claims against
these Defendants are made pursuant to 42 U.S.C.
§ 1983, and the Defendants have filed a summary judgment motion asserting qualified immunity. For the reasons set forth below, the Court finds that Defendants
Steve Harmon, Bobby Lee, Greg Foreman and Dillon
Swaim’s Brief in Support of their Motion for Summary
Judgment [Docket No. 54] should be GRANTED.

17a
I.

Procedural History

On October 23, 2018, the Plaintiff filed the present
case in this Court. In his Second Amended Complaint,
Plaintiff alleged two causes of action against the various Defendants, but only the first implicates these four
defendants.1 The Plaintiff ’s First Cause of Action is
raised pursuant to 42 U.S.C. § 1983 as to all four Defendants, alleging unconstitutional use of excessive
and unreasonable force.
II.

Law Applicable

Summary judgment is appropriate if the record
shows that “there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). A genuine issue of
material fact exists when “there is sufficient evidence
favoring the nonmoving party for a jury to return a verdict for that party.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 249 (1986). The moving party must show the
absence of a genuine issue of material fact, see Celotex
Corp. v. Catrett, 477 U.S. 317, 325 (1986), with the evidence taken in the light most favorable to the non-moving party, Adickes v. S.H. Kress & Co., 398 U.S. 144, 157
(1970). However, “a party asserting that a fact cannot
be or is genuinely disputed must support the assertion
by . . . citing to particular parts of materials in the record . . . or . . . showing that the materials cited do not
1

The Plaintiff ’s Second Cause of Action, arising under the
Oklahoma Constitution as to the Defendant City of Muskogee,
was previously dismissed. See Docket Nos. 33, 45.

18a
establish the absence or presence of a genuine dispute[.]” Fed. R. Civ. P. 56(c).
III.

Factual Background

The undisputed facts reflect that on October 25,
2016, City of Muskogee Police Officer Greg Foreman
was flagged down by a citizen who asked him to check
out a vehicle in the driveway behind a Wendy’s restaurant in Muskogee, Oklahoma. Defendant Foreman
pulled into the restaurant parking lot, located the vehicle in the driveway behind the restaurant, and got
out of his patrol car to approach the vehicle. Defendant
Foreman believed that Mr. Edwards was under the influence of alcohol, drugs, or both, and that it was likely
PCP. Video footage of the encounter from Defendant
Foreman’s body camera reflects that when Defendant
Foreman approached the vehicle, he asked Mr. Edwards several questions that produced no response,
prompting Defendant Foreman to ask, “Can you talk?”
Starting at the 2:43 mark on the video, Defendant
Foreman instructed Mr. Edwards to put his car in park
at least four times before he complied, also once asking
how much he had had to smoke, while Mr. Edwards repeatedly moved his hands in and out of his pockets.
Defendant Foreman asked Mr. Edwards for identification, but it was not until the 3:54 mark that Mr. Edwards was able to retrieve his wallet from his pocket.
The parties agree that Mr. Edwards seemed confused,
had trouble understanding what was happening, and
kept putting his hands in his pockets. For nearly a minute after retrieving his wallet, Defendant Foreman

19a
instructed Mr. Edwards to keep his hands out of his
pockets and put his wallet down on the console of his
car before he complied. The Plaintiff nonetheless asserts that Mr. Edwards responded immediately to all
attempts to engage and obeyed all commands. Defendant Foreman, believing Mr. Edwards to be under the
influence of PCP, thought it best to remove Mr. Edwards from the car and place him under arrest and in
handcuffs.
As Mr. Edwards was getting out of the vehicle, Defendant Foreman instructed Mr. Edwards to turn
around and put his hands behind his back. Defendant
Harmon arrived around this time and also began instructing Mr. Edwards to comply with Defendant Foreman’s instructions to put his hands behind his back.
Defendants asserts that Mr. Edwards did not comply
with this instruction, while Mr. Edwards contends that
the officers prevented him from complying. Defendant
Foreman then reached for Mr. Edwards’s right hand to
attempt to handcuff him, and also radioed for help with
Mr. Edwards. Defendant Harmon then pushed Mr. Edwards back into the space between the car door and the
car, and Defendant Foreman ordered Mr. Edwards to
get on the ground, a safety tactic officers use to subdue
a suspect actively resisting arrest. Defendants Harmon and Foreman then forced Mr. Edwards to the
ground, which Plaintiff asserts they did without waiting for Mr. Edwards to comply.
Over the next four minutes, officers attempted to
handcuff Mr. Edwards. On the video, officers can repeatedly be heard instructing him to put his hands

20a
behind his back while they struggled and appeared to
be grappling with the Plaintiff ’s hands and arms, and
Mr. Edwards can be heard asking, “Why are you
punching me, sir?” During this time, it is undisputed
that Defendant Harmon delivered three punches to
Mr. Edwards’s ribs, a technique taught for use when a
subject is resisting being handcuffed. Footage is grainy
and not clearly trained on Mr. Edwards as Defendants
Foreman and Harmon struggled with Mr. Edwards.
Defendants assert that they could not control Mr. Edwards’s hands and arms and that he was extremely
strong, but Mr. Edwards contends that they did have
control of his hands and arms and were preventing
him from complying with their commands.
During the struggle, Defendant Foreman smelled
an odor he associated with persons under the influence
of PCP, and Plaintiff does not dispute his knowledge
that such substance could cause suspects to fight officers and be at a higher risk of excited delirium, which
could result in death. At the 6:24 mark on the body cam
footage, Defendant Foreman deployed his Taser in an
effort to get Mr. Edwards into custody. Defendant Foreman first deployed the Taser into Mr. Edwards’s back
then immediately moved the connecting wires to his
calf to obtain neuromuscular incapacitation, a technique referred to as “stapling.” Defendants assert the
Taser had no effect on Mr. Edwards, while he contends
that it had a “debilitating” effect on him and that he
never resisted arrest. After deploying the Taser, the
video shows Mr. Edwards attempting to sit up on his
right side, with his right arm propping him up and his

21a
left arm stretched in front of him. Defendant Foreman
again instructed Mr. Edwards to put his hands behind
his back, and Mr. Edwards responded that they were,
although they were not. Around the 6:45 minute mark,
Mr. Edwards appeared to attempt to stand up, and
what followed was a struggle among all parties on the
video. Another officer appears on the video at the 7:09
mark to assist Defendants Foreman and Harmon, and
Mr. Edwards shortly thereafter can be seen in a partially seated position near his vehicle while officers
continued to attempt to get him in handcuffs and instruct him to stop resisting. He can be heard stating,
“I’m not resisting,” and “Let go of me.”
Shortly after the 8:00 mark on the video, Defendant Lee began applying a lateral vascular neck restraint to Mr. Edwards, although Plaintiff asserts it
was not properly applied and that Defendant Lee did
so immediately upon his arrival and without reason. A
number of officers seem to have arrived within this
time frame, as the Plaintiff is surrounded by them at
this point. At the 8:23 mark, officers were then able to
get the first handcuff on Mr. Edwards’s right arm. The
neck restraint was discontinued as officers attempted
to move Mr. Edwards to a facedown position and attach
the second handcuff. Video footage is unsteady but
shows at least six officers attempting to attach the second handcuff to his left arm, which is done at the 9:03
mark. Defendant Swaim had arrived during this time
and assisted in placing the second handcuff; he also
later removed the Taser prongs from Mr. Edwards’s
back. At the 9:10 mark an officer announces that Mr.

22a
Edwards has been handcuffed. The officers surrounding Mr. Edwards then stepped away, and Mr. Edwards
can be seen lying partially face down, with more
weight on his left side, while one officer keeps hands
on his right arm and back. Another officer then places
a knee over Mr. Edwards’s right shoulder while all the
officers discuss calling EMS for Mr. Edwards. Defendants assert, and Plaintiff does not dispute, that after
he was secured by the handcuffs no additional force
was used on him. This means that all allegations of excessive force apply to the time period prior to the handcuffs being secured on Mr. Edwards.
Following the incident, Mr. Edwards was charged
in Muskogee County District Court in Case No. CF2016-1198 with: (i) DUI Drugs – felony, (ii) possession
of a controlled dangerous substance (PCP) – felony,
(iii) resisting an officer – misdemeanor, and (iv) possession of a controlled dangerous substance (Xanax) – felony. See Docket No. 54, Ex. 10, p. 3-4. The form on
which Mr. Edwards entered a plea is a form for entering a plea of guilty, but the word “guilty” is stricken out
and the word “no contest” was handwritten as to the
heading and all questions concerning the type of plea
he was entering. Id. at p. 16-21. The Judge signed a
document which states that “The Defendant’s plea(s)
of no contest is/are knowingly and voluntarily entered
and accepted by the Court,” where “no contest” was
handwritten. Id. at 23. The notice of the right to appeal
likewise has the word “guilty” stricken and interlineated with “no contest.” Id. at p. 26. However, the Judgement and Amended Judgment and Sentence state, in

23a
all caps with no interlineation, that Mr. Edwards entered a plea of guilty. Id. at 32-33.
Analysis
The Defendants have all moved for summary judgment, asserting that Mr. Edwards is barred by collateral estoppel from bringing his Fourth Amendment
claim because he pleaded guilty to resisting arrest, and
therefore excessive force is not possible. Alternatively,
they contend they are each entitled to qualified immunity. The Plaintiff challenges all these arguments,
first contending that he actually pleaded “no contest,”
and that his plea is not a bar to the Fourth Amendment
claim. Furthermore, he contends that the Defendants
are not entitled to qualified immunity because they engaged in unconstitutional and excessive force in violation of clearly established law. For the reasons set forth
below, the Court finds that the Defendants Harmon,
Lee, Foreman, and Swaim are entitled to qualified immunity.
A.

Collateral Estoppel.

The Court first addresses the Defendants’ argument that Mr. Edwards is precluded from asserting a
Fourth Amendment claim at all because he pleaded
guilty to resisting arrest. Under Oklahoma law, “[t]he
doctrine of collateral estoppel, or issue preclusion, is
activated when an ultimate issue has been determined
by a valid and final judgment – that question cannot
be relitigated by parties, or their privies, to the prior

24a
adjudication in any future lawsuit.” Carris v. John R.
Thomas and Associates, P.C., 1995 OK 33, ¶ 9, 896 P.2d
522, 527. Defendants argue that because the Plaintiff
has been found guilty of resisting arrest in this incident, his resistance supports the amount of force used
to arrest him.
The Plaintiff contends that he did not plead guilty,
but rather pleaded “nolo contendere,” or “no contest.”
Defendants respond that because the Judgment and
Amended Judgment “clearly stated” that the Plaintiff
pleaded guilty, his plea could not possibly have been
“no contest,” and any case law regarding “no contest”
pleas is therefore irrelevant. Regardless of whether the
Plaintiff pleaded guilty to resisting arrest or pleaded
“no contest,” however, the Court finds that such conviction is not determinative as to his Fourth Amendment
claim. First, the factual issues in the present case are
not identical to the fact issues presented in the Plaintiff ’s criminal case, and the doctrine of collateral estoppel is therefore not implicated. See Rome v. Romero,
2006 WL 322589, at *6 (D. Colo. Feb. 10, 2006) (“The
§ 1983 claim here concerns whether the Defendants
actually used excessive force, rather than Rome’s belief
about lawfulness of the arrest or the force used. Because the factual issues in the criminal case and in this
case are not identical the doctrine of collateral estoppel
does not apply. Thus, the doctrine of collateral estoppel
does not entitle Defendants to summary judgment on
Rome’s excessive force claim.”).
Second, a conviction for resisting arrest can coexist with an officers’ use of excessive force. In Perea v.

25a
Baca, the Tenth Circuit found that Mr. Perea’s resistance to arrest “did not justify the officers’ severe
response,” holding that “[a]lthough use of some force
against a resisting arrestee may be justified, continued
and increased use of force against a subdued detainee
is not.” 817 F.3d 1198, 1203 (10th Cir. 2016). “Perea
therefore puts the Defendant Officers on notice that
. . . the force used should be no more than is necessary
to subdue the suspect.” Coronado v. Olsen, 2019 WL
652350, at *6 (D. Utah Feb. 15, 2019). See also Martinez v. City of Albuquerque, 184 F.3d 1123, 1127 (10th
Cir. 1999) (“Thus, whether Martinez resisted arrest by
failing to heed instructions and closing his vehicle’s
window on the officer’s arm is likewise a question separate and distinct from whether the police officers exercised excessive or unreasonable force in effectuating
his arrest. The state court’s finding that Martinez resisted a lawful arrest[ ] may coexist with a finding that
the police officers used excessive force to subdue him.
In other words, a jury could find that the police officers
effectuated a lawful arrest of Martinez in an unlawful
manner.”) (internal citations omitted); Riggs v. City of
Wichita, Kan., 2013 WL 978713, at *3 (D. Kan. Mar. 12,
2013) (“Plaintiff does not challenge the lawfulness of
her arrest and conviction, but rather challenges Defendant’s use of excessive force in effectuating her
arrest. Thus, Plaintiff ’s previous resisting arrest conviction does not necessarily foreclose an excessive
force claim here.”). Cf. Strepka v. Jonsgaard, 2010 WL
4932723, at *7 (D. Colo. Nov. 8, 2010) (“Again, because
a finding in this suit that Defendant Jonsgaard used
excessive force would not invalidate the conviction,

26a
Plaintiff ’s excessive force claim is not barred by
Heck.”). Therefore, the Plaintiff ’s First Cause of Action
is not barred by the doctrine of collateral estoppel.
B.

Plaintiff ’s Plea in the Prior Criminal Case

Even if the Plaintiff ’s conviction for resisting arrest does not bar his claim under the Fourth Amendment, it raises the question of what effect it has on the
analysis of the case, at both the summary judgment
and trial stages. The Court is not prohibited from looking behind the Judgment to determine the nature of
the plea. See, e. g., Bland v. State, 2000 OK CR 11, ¶ 88,
4 P.3d 702, 726 (“Appellant asserts that as the jury
found him guilty of malice aforethought murder, the
reference to felony murder [on the Judgment] was a
scrivener’s error which should be corrected. The State
does not dispute this claim. A review of the record supports Appellant’s contentions. Therefore, the trial court
is ordered to correct the judgment and sentence to reflect the jury’s verdict by striking the reference to a
conviction for felony murder.”). Here, every document
aside from the Judgment and Amended Judgment related to the Plaintiff ’s plea indicates that it was a “no
contest plea,” including Court findings signed by the
Judge and dated December 5, 2016, which required
him to handwrite the type of plea being entered
[Docket No. 54, Ex. 10, p. 23]. The Court thus finds that
the Plaintiff pleaded no contest to, inter alia, resisting
arrest, a misdemeanor.

27a
Under Oklahoma law, the “legal effect” of a nolo
contendere plea “shall be the same as that of a plea of
guilty, but the plea may not be used against the defendant as an admission in any civil suit based upon or
growing out of the act upon which the criminal prosecution is based.” 22 Okla. Stat. § 513. See also Martin
v. Phillips, 2018 OK 56, ¶ 6, 422 P.3d 143, 146. Likewise, Fed. R. Evid. 410 states, “In a civil or criminal
case, evidence of the following is not admissible
against the defendant who made the plea or participated in plea discussions: [ ](2) a nolo contendere
plea[.]” The Tenth Circuit has held that “although a
plea of nolo contendere has the same legal effect as a
guilty plea, it is not a factual admission to the underlying crime.” Rose v. Uniroyal Goodrich Tire Co., 219
F.3d 1216, 1220 (10th Cir. 2000) (emphasis in original).
However, in Rose, the Tenth Circuit went on to
state that the rules holding nolo contendere pleas to be
inadmissible “assume a situation in which the criminal
defendant is being sued later in a civil action, and the
plea is offered as proof of guilt.” Id. The Sixth Circuit
found “a material difference between using the nolo
contendere plea to subject a former criminal defendant
to subsequent civil or criminal liability and using the
plea as a defense against those submitting a plea interpreted to be an admission which would preclude liability. Rule 410 was intended to protect a criminal
defendant’s use of the nolo contendere plea to defend
himself from future civil liability.” Walker v. Schaeffer,
854 F.2d 138, 142 (6th Cir. 1988) (emphasis in original).
The Sixth Circuit thus “decline[d] to interpret the rule

28a
so as to allow the former defendants to use the plea
offensively, in order to obtain damages, after having
admitted facts which would indicate no civil liability
on the part of the arresting police.” Id. The Oklahoma
Court of Criminal Appeals in 1992 found Fed. R. Evid.
410 and 12 Okla. Stat. § 2410 “virtually identical,” and
stated, “We agree with, and adopt, the reasoning of the
Sixth Circuit Court in the Walker case.” Irwin v. SWO
Acquisition Corp., 1992 OK CIV APP 48, ¶¶ 10-11, 830
P.2d 587, 590. This holding was reiterated in Delong v.
State ex rel. Oklahoma Dept. of Public Safety, 1998 OK
CIV APP 32, ¶¶ 6-7, 956 P.2d 937, 938-939 (“We are
likewise persuaded by the Walker analysis as the
proper analysis to be employed in our case. Under that
rationale, Delong’s nolo contendere pleas to the charges
of resisting arrest and attempted escape from detention are admissible defensively, and admit the validity
of those charges, thus likewise establishing probable
cause for the arrest on those charges, and waiving any
irregularities in the criminal proceedings including
lack of probable cause.”). But see Delong, 1998 OK CIV
APP 32, ¶ 8 (Hansen, Carol, J., dissenting) (“Because
§ 2410 is clearly unambiguous, the requisite plain language reading can lead to no other conclusion than
that § 2410 precludes admission of evidence of a nolo
contendere plea for any purpose, even when the one entering the plea is the plaintiff in a later civil action.
The majority erroneously interprets § 2410 to give it a
meaning which is in conflict with what the statute
clearly dictates.”).

29a
In light of the aforementioned case law, the Tenth
Circuit has stated that “[t]here is a proscription on the
use of nolo contendere pleas in subsequent civil proceedings, but it applies only to ‘‘offensive’ use . . . to establish the criminal defendant’s subsequent potential
civil liability, not to . . . ‘defensive’ use . . . in a case
where the criminal defendant [has] sought to recover
damages for an alleged unlawful arrest.’ ” Jackson v.
Loftis, 189 Fed. Appx. 775, 779 (10th Cir. 2006). Cf.
Sharif v. Picone, 740 F.3d 263, 270 (3d Cir. 2014) (“Regardless of whether he engaged in assaultive conduct,
Sharif remains free to contend that the reaction of the
corrections officers was such that it constituted excessive force in comparison to the threat he posed. . . .
Given these considerations, we hold that Rule 410
barred the admission of Sharif ’s plea of nolo contendere [to aggravated assault]. . . . Sharif ’s claim that he
did nothing wrong was not inconsistent with his previous plea of nolo contendere, and, thus, would not be relevant in assessing his character for truthfulness.”).
Accordingly, “Plaintiff ’s conviction [by way of a
nolo contendere plea] for resisting arrest will be relevant to the determination of whether Defendant used
excessive force to effectuate h[is] arrest.” Riggs v. City
of Wichita, Kan., 2013 WL 978713, at *3 (March 12,
2013). The Court thus finds that the Plaintiff ’s conviction for resisting arrest, by way of a no contest plea, is
relevant and admissible under both Tenth Circuit and
Oklahoma law to determining whether the Defendants
used excessive force, although it is not determinative.

30a
C.

Qualified Immunity.

The Court now turns to the Defendants’ contention that they are entitled to qualified immunity here.
“The doctrine of qualified immunity protects government officials from liability for civil damages insofar as
their conduct does not violate clearly established statutory or constitutional rights of which a reasonable
person would have known.” Clark v. Wilson, 625 F.3d
686, 690 (10th Cir. 2010), quoting Pearson v. Callahan,
555 U.S. 223, 231 (2009). “Additional steps are taken
when a summary judgment motion raises a defense of
qualified immunity.” Cunningham v. New Mexico, 2014
WL 12791236, at *4 (D. N.M. May 12, 2014), citing Martinez v. Beggs, 563 F.3d 1082, 1088 (10th Cir. 2009).
“When a defendant asserts qualified immunity at
summary judgment, the burden shifts to the plaintiff
to show that: (1) the defendant violated a constitutional right and (2) the constitutional right was clearly
established. The court may consider either of these
prongs before the other ‘in light of the circumstances
in the particular case at hand.’ ” Cunningham v. New
Mexico, 2014 WL 12791236, at *4 (D. N.M. May 2, 2014)
(emphasis added), quoting Pearson, 555 U.S. at 236. “In
other words, immunity protects ‘all but the plainly incompetent or those who knowingly violate the law.’ ”
White v. Pauly, ___ U.S. ___, 137 S. Ct. 548, 551 (2017),
quoting Mullenix v. Luna, ___ U.S. ___, 136 S. Ct. 305,
308 (2015). “If, and only if, the plaintiff meets this twopart test does a defendant then bear the traditional
burden of the movant for summary judgment—showing that there are no genuine issues of material fact

31a
and that he or she is entitled to judgment as a matter
of law.” Rojas v. Anderson, 727 F.3d 1000, 1003 (10th
Cir. 2013) (internal quotation marks omitted).
It is also important to note that “[p]laintiffs must
do more than show that their rights ‘were violated’ or
that ‘defendants,’ as a collective and undifferentiated
whole, were responsible for those violations. They must
identify specific actions take by particular defendants[ ] that violated their clearly established constitutional rights.” Pahls v. Thomas, 718 F.3d 1210, 1228
(10th Cir. 2013) (internal citations omitted). See also
Henry v. Storey, 658 F.3d 1235, 1241 (10th Cir. 2011)
(“§ 1983 imposes liability for a defendant’s own actions—personal participation in the specific constitutional violation complained of is essential.”). In other
words, “the complaint must ‘isolate the allegedly unconstitutional acts of each defendant’; otherwise the complaint does not ‘provide adequate notice as to the nature
of the claims against each’ and fails for this reason.”
Matthews v. Bergdorf, 889 F.3d 1136, 1144 (10th Cir.
2018), quoting Robbins v. Oklahoma, 519 F.3d 1242,
1250 (10th Cir. 2008). The exception to this, though,
is sometimes found at the summary judgment stage
of excessive force cases where there is active and joint
participation in the use of force.2 See Estate of Booker
2

The Tenth Circuit also noted in Estate of Booker v. Gomez
that “failure to conduct an individualized analysis is [also] not reversible error” where an individual’s actions do not constitute excessive force but the “deputy could be liable under a failureto-intervene theory.” 745 F.3d 405, 421-422 (10th Cir. 2014).
However, the Plaintiff has neither alleged in the Complaint that
officers failed to intervene nor argued on the basis of this in his

32a
v. Gomez, 745 F.3d 405, 421 (10th Cir. 2014) (“Although
we frequently conduct separate qualified immunity
analyses for different defendants, we have not always
done so at the summary judgment stage of excessive
force cases. Where appropriate, we have aggregated officer conduct.”) (collecting cases). This is generally seen
where the Defendants appear to have engaged in a
“group effort.” See, e. g., Stout v. United States, 2016 WL
4130231, at *2 (W.D. Okla. Aug. 2, 2016) (“Given that
all of the individual Defendants are alleged to have
fired into the car, it is not necessary to determine which
of the officers fired the shot that resulted in Stout’s
death.”). See also Estate of Booker, 745 F.3d at 422 (“Because the Defendants here engaged in a group effort, a
reasonable jury could find them liable for an underlying finding of excessive force.”). But an aggregate analysis is not required. See Lynch v. Board of County
Commissioners of Muskogee County, Oklahoma, 2019
WL 4233382, at *4 n.3 (10th Cir. Sept. 6, 2019) (“Because we address each officer separately, we need not
opine as to whether group-analysis would have been
appropriate.”). It thus appears that group analysis is
often accompanied by either an indivisible activity
such as all officers firing weapons at the same time (as
Response, and the Court will therefore not consider this alternative to the active and joint participation of the four named Defendants. Lynch v. Board of Cty. Commissioners of Muskogee
County, Oklahoma, 2019 WL 4233382, at *5 (10th Cir. Sept. 6,
2019) (“A plaintiff does not have to separately plead a failure to
intervene cause of action, but the pleadings must make clear the
grounds on which the plaintiff is entitled to relief. Here, the pleadings did not make clear that the appellants are entitled to relief
on a failure to intervene theory.”) (internal quotations omitted).

33a
discussed in Stout, above), or when each officer’s active
participation is nevertheless also made part of the
analysis. See Moore v. Stadium Management Company,
LLC, 2016 WL 879829, at *8 (D. Colo. March 8, 2016)
(citing to Estate of Booker and noting that, “in finding
that aggregating the conduct of multiple officers was
appropriate, the Tenth Circuit’s decision cited evidence
of each officer’s active participation in the challenged
use of force.”).
Here, Defendants assert in their Reply that Plaintiff has failed the requirement of Pahls to “make clear
exactly who is alleged to have done what to whom, . . .
as distinguished from collective allegations.” 718 F.3d
at 1225 (quotation omitted) (emphasis in original). The
undisputed facts reflect that Defendant Harmon delivered three punches to the Plaintiff ’s ribs, Defendant
Foreman deployed the Taser on the Plaintiff, Defendant Lee employed the lateral vascular neck restraint
on the Plaintiff, and Defendant Swaim helped to place
the second handcuff on the Plaintiff. The Plaintiff refers to the chokehold, the Taser, and an unnamed officer or officers who placed a knee on his back to subdue
him as applications of excessive force. It thus appears
that there are facts supporting a coordinated use of
force as to Defendants Harmon, Foreman, and Lee, but
perhaps not as to Defendant Swaim. However, since it
was a “group effort,” including Defendant Swaim, it is
possible a reasonable jury could find all of them, including Defendant Swaim, liable for any finding of excessive force. The Court finds, for the reasons set forth

34a
below, that the officers are entitled to qualified immunity under either analysis.
“To state an excessive force claim ‘under the
Fourth Amendment, plaintiffs must show both that a
‘seizure’ occurred and that the seizure was ‘unreasonable.’ ” Thomas v. Durastanti, 607 F.3d 655, 663 (10th
Cir. 2010) (emphasis in original), quoting Childress v.
City of Arapaho, 210 F.3d 1154, 1156 (10th Cir. 2000).
“[A] ‘seizure’ requires restraint of one’s freedom of
movement and includes apprehension or capture by
deadly force.” Brooks v. Gaenzle, 614 F.3d 1213, 1219
(10th Cir. 2010). The parties do not challenge that a
seizure occurred, as the Defendants were in the process of arresting the Plaintiff. It remains, however, for
the Plaintiff to demonstrate that the actions of each of
these Defendants was unreasonable.
“The ‘reasonableness’ of a particular use of force
must be judged from the perspective of a reasonable
officer on the scene, rather than with the 20/20 vision
of hindsight.” Graham v. Connor, 490 U.S. 386, 396
(1989). And it is an objective inquiry: “the question is
whether the officers’ actions are objectively reasonable
in light of the facts and circumstances confronting
them, without regard to their underlying intent or motivation.” Id. at 397 (internal quotations omitted). An
officer does not have to use the least intrusive means,
as long as his conduct was reasonable, which is based
on the totality of the circumstances. Thomas, 607 F.3d
at 670; Tennessee v. Garner, 471 U.S. 1, 8-9 (1985). Because it is based on the totality of circumstances of
each case, “[r]easonableness” does not have a precise

35a
test but rather “requires careful attention to the facts
and circumstances of each particular case.” Graham,
490 U.S. at 396. “If an officer reasonably, but mistakenly, believed that a suspect was likely to fight back . . .
the officer would be justified in using more force than
in fact was needed.” Jiron v. City of Lakewood, 392 F.3d
410, 415 (10th Cir. 2004), quoting Saucier v. Katz, 533
U.S. 194, 205 (2001). “[W]e are mindful: ‘Not every push
or shove, even if it may later seem unnecessary in the
peace of a judge’s chambers, violates the Fourth
Amendment.’ ” Lundstrom v. Romero, 616 F.3d 1108,
1126 (10th Cir. 2010), quoting Fisher v. City of Las Cruces, 584 F.3d 888, 894 (10th Cir. 2009).
The Supreme Court in Graham set out several important factors, including “[1] the severity of the crime
at issue, [2] whether the suspect poses an immediate
threat to the safety of the officers or others, and [3]
whether he is actively resisting arrest or attempting to
evade arrest by flight.” 490 U.S. at 396. Also, “[t]he reasonableness of Defendants’ actions depends both on
whether the officers were in danger at the precise moment that they used force and on whether Defendants’
own reckless or deliberate conduct during the seizure
unreasonably created the need to use such force.”
Sevier v. City of Lawrence, Kan., 60 F.3d 695, 699
(10th Cir. 1995) (emphasis added). Finally, “[o]ur Fourth
Amendment jurisprudence has long recognized that the
right to make an arrest or investigatory stop necessarily carries with it the right to use some degree of
physical coercion or threat thereof to effect it.” Graham, 490 U.S. at 396.

36a
As to the first factor, the severity of the crime, the
Court finds that it weighs slightly in favor of the Plaintiff. He was being arrested for several drug-related felonies, and “[f ]elonies are deemed more severe,” see
Clark v. Bowcutt, 675 Fed. Appx. 799, 807 (10th Cir.
2017), but “Defendants do not contend that any of [the
Plaintiff ’s] alleged crimes were accompanied by violence.” Estate of Ronquillo by and through Estate of
Sanchez v. City and County of Denver, 720 Fed. Appx.
434, 438 (10th Cir. 2017) (“The officers were pursuing
Mr. Ronquillo for arrest warrants related to aggravated vehicle theft. However, as the district court
noted, Defendants do not contend that any of Mr. Ronquillo’s alleged crimes were accompanied by violence.
We thus weigh this factor in favor of the estate.”). Cf.
Huntley v. City of Owasso, 497 Fed. Appx. 826, 830
(10th Cir. 2012) (“Faced with a complaint of potentially
felonious domestic violence, the officers find support
from the first Graham factor.”) (emphasis added).
The second factor—the immediacy of the harm—
requires the closest analysis and “is undoubtedly the
‘most important’ and fact intensive factor in determining the objective reasonableness of an officer’s use of
force.” Pauly v. White, 874 F.3d 1197, 1216 (10th Cir.
2017), quoting Bryan v. MacPherson, 630 F.3d 805, 826
(9th Cir. 2010). This factor is analyzed “at the precise
moment that the officer used force.” Estate of Ronquillo, 720 Fed. Appx. at 438. “The court conducts this
analysis from the perspective of a reasonable officer on
the scene, rather than with the vision of 20/20 hindsight, acknowledging that the officer may be forced to

37a
make split-second judgments in certain difficult circumstances.” Estate of Ronquillo by and through Estate of Sanchez v. City and County of Denver, 2016 WL
10843787, at *3 (D. Colo. Nov. 17, 2016). Again, this
analysis takes into account “the totality of circumstances.” Thomson v. Salt Lake City, 584 F.3d 1304,
1319 (2009). Here, Defendants contend that noncompliant suspects under the influence of PCP are extremely dangerous and unpredictable, often possessing
enhanced physical strength, endurance, and resistance
to pain. Plaintiff contends instead that he was peaceful
and cooperative, and that intoxicated persons pose a
minimal threat, citing Novitsky v. City of Aurora, 491
F.3d 1244, 1255 (10th Cir. 2007), in which the Tenth
Circuit found the immediacy of the harm was mitigated because although the Plaintiff was intoxicated,
he had not resisted arrest and his demeanor was “benign” when an officer employed a “twist lock” on his
arm. But Novitsky is distinguishable from this case.
Although Plaintiff contends he always cooperated, he
in fact pleaded no contest to resisting arrest. And the
Plaintiff does not dispute that he was intoxicated,
seemed confused, and had trouble understanding with
and complying with Defendant Foreman’s instructions.
Such documented noncompliance bolsters the immediacy of the threat to the officers, as “intoxicated people
are often unpredictable and inject uncertainty into interaction with law enforcement.” Ornelas v. Lovewell,
2014 WL 1238014, at *2 (D. Kan. March 26, 2014). “The
situation presented to [the officers] was clearly a tense,
uncertain, and rapidly evolving situation that we do
not like to second-guess using the 20/20 hindsight

38a
found in the comfort of a judge’s chambers.” Phillips v.
James, 422 F.3d 1075, 1084 (10th Cir. 2005). This factor
therefore weighs in favor of the Defendants.
The third factor, whether the Plaintiff was resisting arrest, goes along with the second factor and also
weighs more in the Defendants’ favor. In light of the
fact of the Plaintiff ’s resistance to arrest, the officers
who attempted to arrest the Plaintiff were justified in
some use of force in arresting the Plaintiff. As stated
above, the evidence reflects that the Plaintiff pleaded
no contest to resisting arrest in violation of 21 Okla.
Stat. § 268, which provides that it is a misdemeanor to
“knowingly resist[ ], by the use of force or violence, any
executive officer in the performance of his duty.” Additionally, the Affidavit signed by Defendant Foreman as
part of the arrest record states that the Plaintiff “resisted arrest and had [controlled dangerous substance]
in his vehicle.” See Docket No. 54, Ex. 10, p. 7. As discussed above, in this Circuit the Plaintiff is not entitled
to use his no contest plea to recover damages. See Jackson, 189 Fed. Appx. at 779 (“There is a proscription on
the use of nolo contendere pleas in subsequent civil
proceedings, but [ ] not to . . . ‘defensive’ use . . . in a
case where the criminal defendant [has] sought to recover damages for an alleged unlawful arrest.’ ”). The
Court notes that the Plaintiff challenges the Defendants’ interpretation of the events in the body camera
video, but he does not challenge that he pleaded “no
contest” to resisting arrest, and such fact is admissible
under these circumstances. The remaining question, of
course, is how much force was justified.

39a
The facts reflect that Defendant Foreman and Defendant Harmon attempted to handcuff the Plaintiff
but were unsuccessful and took him to the ground. It
is not clear from the video or the briefing, but this may
also be the point where Plaintiff refers to the full force
of an officer on his prone body. Defendant Harmon first
delivered three blows to the Plaintiff ’s ribs in an effort
to get him to comply with the arrest, and these two officers grappled with the Plaintiff in order to get his
hands behind his back. Defendant Foreman then employed the Taser in the “stapling” method, but officers
were still unable to handcuff the Plaintiff. While the
use of a Taser can be excessive under certain circumstances, see Estate of Booker, 745 F.3d at 424-425 (“Under prevailing Tenth Circuit authority, it is excessive
to use a Taser to control a target without having any
reason to believe that a lesser amount of force—or a
verbal command—could not exact compliance.”) (internal quotation omitted), the use of a Taser is not per se
objectively unreasonable when a subject is not clearly
under an officer’s control. See Perea v. Baca, 817 F.3d
1198, 1204 (10th Cir. 2016) (“Even if Perea initially
posed a threat to officers that justified tasering him,
the justification disappeared when Perea was under
the officers’ control.”). Then as more officers arrived to
assist, Defendant Lee applied the neck restraint which
allowed the officers to get the first handcuff on the
Plaintiff, and then get him back facedown again to get
the second handcuff attached. Once the second handcuff was attached, all but one of the officers backed
away from the Plaintiff within seconds, and it is undisputed that there was no additional force after the

40a
handcuffs were secured. Based on the totality of the
circumstances here, the Court therefore finds that the
actions of each officer, individually and collectively,
were objectively reasonable.
But even assuming arguendo that the officers’ actions were objectively unreasonable, the Plaintiff must
also establish that Defendants’ actions violated a
clearly established constitutional right. “Ordinarily, a
plaintiff may show that a particular right was clearly
established at the time of the challenged conduct ‘by
identifying an on-point Supreme Court or published
Tenth Circuit decision; alternatively, ‘the clearly established weight of authority from other courts must have
found the law to be as he maintains.’ ” A.M. v. Holmes,
830 F.3d 1123, 1135 (10th Cir. 2016), quoting Quinn v.
Young, 780 F.3d 998, 1005 (10th Cir. 2015). However,
“ ‘clearly established law’ should not be defined ‘at a
high level of generality.’ ” Pauly, 137 S. Ct. at 552, quoting Ashcroft v. al-Kidd, 563 U.S. 731, 742 (2011). Instead, it “must be ‘particularized’ to the facts of the
case. Otherwise, plaintiffs would be able to convert the
rule of qualified immunity . . . into a rule of virtually
unqualified liability simply by alleging violation of extremely abstract rights.” Id., quoting Anderson v.
Creighton, 483 U.S. 635, 639-640 (1987). Therefore,
“[t]he dispositive question is whether the violative
nature of particular conduct is clearly established.”
Mullenix v. Luna, ___ U.S. ___, 136 S. Ct. 305, 308
(2015) (emphasis in original).
Although the Plaintiff has advocated for a “slidingscale” approach measuring degrees of egregiousness,

41a
see Casey v. City of Federal Heights, 509 F.3d 1278,
1284 (10th Cir. 2007) (“[B]ecause excessive force jurisprudence requires and all-things-considered inquiry
with careful attention to the fact and circumstances of
each particular case . . . [w]e have therefore adopted a
sliding scale to determine when law is clearly established.”), the Tenth Circuit has noted that such scale
has come into question and “may arguably conflict with
recent Supreme Court precedent on qualified immunity” because it “may allow us to find a clearly established right even when a precedent is neither on point
nor obviously applicable.” Lowe v. Raemisch, 864 F.3d
1205, 1211 n.10 (10th Cir. 2017).
The Plaintiff also points to Estate of Booker as to
clearly established law, arguing that because that case
involved the use of a choke hold, pressure on the back
of an arrestee, and a taser, the Defendants here were
on notice that “use of such force on a person who is not
resisting and who is restrained in handcuffs is disproportionate.” 745 F.3d at 428-429. But here, none of
those actions occurred while the Defendant was in
handcuffs, and the Defendant was resisting. Moreover,
the choke hold in this case occurred while the Plaintiff
was sitting up, while in Estate of Booker the Plaintiff
was face down with an officer on top of him while the
restraint was applied.
Finally, the Plaintiff points to Weigel v. Broad, 544
F.3d 1143 (10th Cir. 2008), a case involving positional
asphyxiation where “Mr. Weigel was fully restrained
and posed no danger, [but] the defendants continued
to use pressure on a vulnerable person’s upper torso

42a
while he was lying on his stomach.” 544 F.3d at 1154.
The Tenth Circuit held there that “the law was clearly
established that applying pressure to Mr. Weigel’s upper back, once he was handcuffed and his legs restrained, was constitutionally unreasonable due to the
significant risk of positional asphyxiation associated
with such actions.” Id. at 1155. Such facts are clearly
distinguishable from this case, where those techniques
were applied only until the Plaintiff was placed in restraints. See McCoy v. Meyers, 887 F.3d 1035, 1048
(10th Cir. 2018) (“[T]he preexisting precedent would
not have made it clear to every reasonable officer that
striking Mr. McCoy and applying a carotid restraint
on him [before he was subdued] violated his Fourth
Amendment rights. The cases cited by Mr. McCoy—
Dixon [v. Richer, 922 F.2d 1456 (10th Cir. 1991)], Casey,
and Weigel—involved force used on individuals who either did not pose a threat to begin with or were subdued and thus no longer posed any threat.”). See also
Waters v. Coleman, 632 Fed. Appx. 431, 437 (10th Cir.
2015) (“The key fact here is that while Officer Jones
was applying force, Mr. Ashley was resisting being
taken into custody. In several cases decided before
2011, this court upheld use of force by officers who
faced physical resistance, including against persons
who were impaired. Further, the pre-2011 cases holding that force may be excessive tend to emphasize a
detainee’s lack of resistance.”) (emphasis in original)
(collecting cases).
The Court thus concludes that it is not clearly established that any of the Defendants violated the

43a
Constitutional rights of the Plaintiff. Because he has
failed to carry his burden of establishing a violation of
his constitutional rights, and because the law is not
clearly established that the Defendants’ actions violated the law, Defendants Harmon, Foreman, Lee, and
Swaim are granted qualified immunity on Plaintiff ’s
claim under 42 U.S.C. § 1983.
CONCLUSION
In summary, the Defendants Steve Harmon,
Bobby Lee, Greg Foreman and Dillon Swaim’s Brief
in Support of their Motion for Summary Judgment
[Docket No. 54] is hereby GRANTED.
DATED this 16th day of December, 2019.
/s Steven Shreder
Steven P. Shreder
United States Magistrate Judge
Eastern District of Oklahoma

44a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF OKLAHOMA
JERIEL EDWARDS,
vs.
(1)
(2)
(3)
(4)
(5)

)
)
Plaintiff,
)
)
)
STEVE HARMON,
STEVEN WARRIOR
)
BOBBY LEE,
)
GREG FOREMAN, and )
DILLON SWAIM,
)
)
Defendants.

Case No.
18-CV-347-SPS

PLAINTIFF’S RESPONSE TO DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT[*]
(Filed Oct. 28, 2019)
Plaintiff, through his counsel, Andrea Worden,
submits his response to the Defendants’ Motion for
Summary Judgment and requests that such Motion be
denied.
FACTS
The Defendants’ Statement of the Case and Statement of Uncontroverted Facts are based on Greg Foreman’s body camera video, which has been provided to
the Plaintiff along with at least fourteen (14) other relevant body camera and dash camera videos. These
“statements” provided are for the most part

* Cover page and table of contents omitted

45a
misleading and false. In response to each of the Defendants’ “uncontroverted statements,” the Plaintiff
offers the following (in corresponding order):
1.

Not disputed.

2.

In dispute. Defendants’ version of the statement
provided by the citizen is inaccurate.

3.

Not disputed.

4.

Disputed. Defendants claim Plaintiff failed to respond to numerous attempts made by the officer
to communicate. Plaintiff responded, immediately,
to all attempts to engage and obeyed all commands. This is a material fact.

5.

Not disputed.

6.

Not disputed.

7.

Not disputed.

8.

Not disputed.

9.

Not disputed.

10. Not disputed.
11. Not disputed.
12. Disputed. Defendants claim Plaintiff failed to
comply with the orders to put his hands behind his
back. Plaintiff denies the assertion and asserts
that the officers intentionally prevented him from
placing his hands behind his back. This is a material fact.
13. Not disputed.
14. Not disputed.

46a
15. Not disputed.
16. Not disputed.
17. Disputed. Defendants did not wait for Plaintiff to
obey the command to get on the ground before
tackling him to the ground; they did it simultaneously. This is a material fact.
18. Not disputed.
19. Disputed. Defendants claim Plaintiff actively resisted by not allowing himself to be handcuffed.
Plaintiff denies resisting and asserts that he tried
to comply, desperately, but Defendants prevented
him from doing so. This is a material fact.
20. Disputed. Defendants claim Harmon struck Plaintiff in the ribs in effort to get Plaintiff to give up
his left arm. The video clearly shows that Harmon
already had ahold of Plaintiff ’s left arm, securely,
and actually released it in order to apply the
strikes to Plaintiff ’s ribs. This is a material fact.
21. Not disputed.
22. Disputed. Defendants claim they were unable to
control Plaintiff ’s hands and arms. The video
clearly shows that they had control of his hands
and arms at multiple times throughout the incident, including the times when they were preventing him from putting them behind his back.
23. Not disputed.
24. Not disputed.
25. Not disputed.
26. Not disputed.

47a
27. Disputed. Defendants claim the taser had no effect
on Plaintiff and that he continued to resist. Plaintiff adamantly denies the assertion and argues the
taser had a debilitating effect on him and that he
never resisted arrest. This is a material fact.
28. Disputed. Defendants claim Harmon struck Plaintiff on the upper arm with a Maglite Flashlight.
Plaintiff asserts Harmon struck him in the head.
This is a material fact.
29. Disputed. Defendants claim Lee arrived and immediately tried to assist the other officers. The
video clearly shows he immediately applied the
chokehold upon arrival, for no apparent legitimate, lawful reason as the Plaintiff was still restrained. This is a material fact.
30. Disputed. Defendants claim the move was a lateral vascular neck restraint. Plaintiff asserts it
was not properly applied and therefore was an unlawful chokehold. This is a material fact.
31. Not disputed.
32. Not disputed.
33. Not disputed.
34. Not disputed.
35. Not disputed.
36. Not disputed.
37. Not disputed.
38. Disputed. Defendants claim the bi-lateral neck restraint is an accepted law enforcement restraint.
Plaintiff asserts that, even if properly applied, the

48a
move is widely criticized and controversial. This is
a material fact.
39. Not disputed.
40. Not disputed.
41. Not disputed.
42. Disputed. Defendants claim evidence obtained
from Plaintiff ’s car was contraband but did not
provide any reliable test results to support the
claim. Plaintiff denies the assertion. This is a material fact.
43. Not disputed.
44. Not disputed.
45. Disputed. Defendants claim Plaintiff entered a
plea of guilty on all counts. Plaintiff entered a plea
of no contest. This is a material fact.
ARGUMENT
I.

SUMMARY JUDGMENT STANDARD

The Defendants have moved for summary judgment under Fed. R. Civ. P. 56 on Edwards’ Fourth
Amendment excessive force claim. Under Rule 56(a),
summary judgment is allowed only if the movant
shows that there is no genuine dispute as to any material fact and that the movant is entitled to judgment
as a matter of law. When applying this standard, a
court must construe the evidence in the light most favorable to the non-moving party, in this case Edwards.
Estate of Booker v. Gomez, 745 F.3d 405, 411 (10th Cir.

49a
2014). Additionally, the court must draw all reasonable inferences in the light most favorable to the nonmoving party. Lundstrom v. Romero, 616 F.3d 1108,
1118 (10th Cir. 2010).
Where, as in the instant case, summary judgment
is based on the defense of qualified immunity, a twostep inquiry applies. First, taken in the light most favorable to the party asserting the injury, do the facts
alleged show the officer’s conduct violated a constitutional right? If so, the inquiry then becomes whether
the right was clearly established. Olsen v. Layton Hills
Mall, 312 F.3d 1304, 1312 (10th Cir. 2002). The normal
summary judgment burden of showing that no material facts remain in dispute that would defeat the qualified immunity defense remains on the defendant. If
the record shows an unresolved question of fact relevant to this immunity analysis, a motion for summary
judgment based on qualified immunity should be denied. Id.
II.

THE DEFENDANTS ARE NOT ENTITLED
TO SUMMARY JUDGMENT ON EDWARDS’
EXCESSIVE FORCE CLAIM
A. Collateral Estoppel Does Not Bar Edwards’ Fourth Amendment Claim

The Defendants initially argue that because Edwards was convicted on a no contest plea to a misdemeanor resisting an officer charge1, his claim under
1

The conviction was entered under 21 O.S. 268, which provides that “[e]very person who knowingly resists, by the use of

50a
42 U.S.C. § 1983 that the Defendants used excessive
force on him during his October 25, 2016 arrest is
barred. Invoking the doctrine of collateral estoppel, Defendants’ contend that this precludes Edwards from
prevailing on his Fourth Amendment claim. The Defendants’ reasoning is that because Edwards’s resistance to his arrest is established by the judgment in
the prior criminal case arising from the incident, that
resistance “alone support[s] that the amount of force
used under the circumstances was reasonable” for purposes of the Fourth Amendment. (Doc. 54, at 14).
This argument is meritless on at least two
grounds. First, the plea upon which Edwards’ conviction was based was a “no contest” plea. (Doc. 54-10, at
16, 19-21, 23, 26). Oklahoma law provides that with respect to a “nolo contendere” plea, “[t]he legal effect of
such plea shall be the same as that of a plea of guilty,
but the plea may not be used against the defendant as
an admission in any civil suit based upon or growing
out of the act upon which the criminal prosecution is
based.” 22 O.S. Sec. 513 (emphasis added). See also
Martin v. Phillips, 422 P.3d 143, 146 (Okla. 2018) (Oklahoma law, mandates that nolo contendere (“no-contest”) pleas may not be used against the defendant as
an admission in any civil suit based upon or growing
out of the act upon which the criminal prosecution is
based). The Defendants admit that Oklahoma law governs the preclusive effect to be given the prior judgment in Edwards’ criminal case. (Doc. 54, at 12-13
force or violence, any executive officer in the performance of his
duty, is guilty of a misdemeanor.“

51a
(citing 28 U.S.C. § 1738)). Because Oklahoma law does
not give preclusive effect to the judgment entered upon
Edwards’ no contest plea, Martin, 422 P.3d at 148, it
does not give rise to collateral estoppel in these federal
court proceedings.
Second, even if the prior no contest plea establishes that Edwards in some manner and to some degree resisted the officers’ attempts to arrest him, the
fact of resistance alone does not establish as a matter
of fact or law that the Defendants did not deprive Edwards of his Fourth Amendment right to be free from
the use of excessive force in the course of a seizure. As
discussed in more detail infra, police violate the Fourth
Amendment’s prohibition on unreasonable seizures if,
in the course of arresting a person, they employ force
upon the person that is unreasonable, excessive or not
warranted by the circumstances. Graham v. Conner,
490 U.S. 386 (1989). There are three, non-exclusive factors relevant to an excessive force inquiry: (1) the severity of the crime at issue, (2) whether the suspect
poses an immediate threat to the safety of the officers
or others, and (3) whether he is actively resisting arrest or attempting to evade arrest by flight. Lundstrom
v. Romero, 616 F.3d 1108, 1126 (10th Cir. 2010). The ultimate issue in an excessive force case is whether the
defendants’ use of force was objectively reasonable
when all the relevant facts and circumstances are considered. Fisher v. City of Las Cruces, 584 F.3d 888, 89495 (10th Cir. 2009).
Thus, resistance by the plaintiff bringing an excessive force claim is only one factor that is balanced in

52a
determining whether the defendants’ use of force is objectively reasonable. Contrary to the Defendants’ collateral estoppel argument, the fact that a plaintiff
resisted efforts by police to arrest him does not preclude a Fourth Amendment excessive force claim. For
example, in Chacon v. Copeland, No. 12-CA-226, 2015
WL 2018937 (W.D. Tex. Apr. 30, 2015). The court there
upheld a jury verdict2 on an excessive force claim
where police investigating a report of a man with a gun
eventually grabbed the defendant, threw him to the
ground and shot him with a taser several times. In the
course of trying to subdue the plaintiff, the plaintiff
had pulled away from one of the officers and shoved the
officer off of him. The defendants alleged that these actions showed that the plaintiff was resisting and justified the force employed on him. But the court rejected
this argument, ruling as follows:
As the Fifth Circuit noted, “[t]he seriousness
of Chacon’s shove, and whether a finder of fact
could conclude that the shove was not active
resistance, or was disproportionately minor in
relation to the severity of force used by the officers, were fact questions not resolvable by
the video and properly put to a trier of fact.
Chacon, 2015 WL 2018937 at *6 (quoting Chacon v.
Copeland, 577 Fed. Appx. at 362).

2

The Court of Appeals for the Fifth Circuit had previously ruled
in the case that the police were not entitled to summary judgment
on their claim of qualified immunity. Chacon v. Copeland, 577
Fed. Appx. 355 (5th Cir. 2014).

53a
Because lack of resistance to an arrest by an excessive force plaintiff is only a factor, and not an element, of a Fourth Amendment excessive force claim,
courts have repeatedly rejected collateral estoppel arguments like the one made by the Defendants in their
summary judgment motion. In Donovan v. Thames, 105
F.3d 291 (3d Cir. 1997), the court reversed summary
judgment against a plaintiff in an excessive force case
where the judgment was based on the preclusive effect
of plaintiff ’s conviction for resisting the arrest giving
rise to the Fourth Amendment claim. “Because the issue of the officers’ use of excessive force was not essential to the conviction for resisting arrest and because
we have no evidence that the issue of excessive force
was actually litigated in the state-court criminal proceeding, we hold based on Kentucky law that issue preclusion does not restrict Donovan’s excessive force
claim in federal court.” Id. at 295. Similarly, in Hernandez v. City of Los Angeles, 624 F.2d 935, 938 (9th Cir.
1980), the court rejected police officers’ claims that collateral estoppel, based on the plaintiff ’s resisting arrest conviction, barred the plaintiff ’s excessive force
claim because the conviction did not necessarily decide
that the defendant police officers did not use excessive
force in arresting the plaintiff. See also Sullivan v. Officer Gagnier, 225 F.3d 161, 165 (2d Cir. 1999) (fact that
plaintiff was convicted of resisting arrest does not foreclose the possibility that the force used by police in response was excessive) and Courteney v. Reeves, 635
F.2d 326, 329 (5th Cir. 1981) (plaintiff ’s conviction for
assaulting police officers as they tried to apprehend
him did not collaterally estop plaintiff from

54a
prevailing on excessive force claim against officers;
admitted assault upon a police officer does not negate
the possibility that the officer’s alleged force used in
course of arrest) .
The Defendants’ contention that Edwards’ “efforts
to resist alone support that the amount of force used
under the circumstances was reasonable” (Doc. 54, at
19) is simply wrong and not supported by the cases
they cite. The decisions in Estate of Phillips v. City of
Milwaukee, 123 F.3d 586 (7th Cir. 1997), and Mayard v.
Hopwood, 105 F.3d 1226 (8th Cir. 1997), do not even
mention collateral estoppel, much less apply it, and the
courts’ references to resisting arrest were simply to
note that it was a factor considered in judging the reasonableness of the officers’ use of force.
To the contrary, the case law rejects the Defendants’ collateral estoppel argument. Indeed, if resisting
arrest constituted a bar to excessive force claims, police
would be given carte blanche to abuse arrestees as they
see fit without fear of being held responsible and regardless of the degree of resistance. Donovan, 105 F.3d
at 328 (citing Vazquez v. Metropolitan Dade County,
968 F.2d 1101, 1109 (11th Cir.1992)). Because of this
case law and the state law preventing Edwards’ no contest plea from having preclusive effect, the Defendants
are not entitled to summary judgment on the basis of
collateral estoppel.

55a
B. The Defendants’ Are Not Entitled To
Summary Judgment On The Basis Of
Qualified Immunity
The Defendants’ also invoke the defense of qualified immunity as grounds for granting summary judgment. Qualified immunity shields public officials from
damages actions unless their conduct was unreasonable in light of clearly established law. Gann v. Cline,
519 F.3d 1090, 1092 (10th Cir. 2008). As noted above,
when a qualified immunity is raised as a basis for summary judgment, a two-step inquiry applies. A plaintiff
must show first that the defendants’ actions deprived
the plaintiff of a constitutional right. If that showing is
made, the court must then determine whether the defendants’ conduct was objectively reasonable in light of
clearly established law at the time it took place. Weigel
v. Broad, 544 F.3d 1143, 1151 (10th Cir. 2008). Thus, “’if
a [constitutional] violation could be made out on a favorable view of the parties’ submissions, the next, sequential step is to ask whether the right was clearly
established.’ ” Id. (quoting Saucier v. Katz, 533 U.S. 194,
201 (2001)) (emphasis by court).
Invocation of qualified immunity does not change
the general rules governing summary judgment. Tenth
Circuit precedent makes clear that qualified immunity
may not be granted in excessive force cases where
there are material factual issues in dispute. Olsen, 312
F.3d at 1314. Accord Estate of Booker, 745 F.3d at 41415. Additionally, a court must still view the facts in the
light most favorable to the non-moving party and resolve all factual disputes and reasonable inferences in

56a
favor of the non-moving party where qualified immunity is raised on a summary judgment motion. Id. at
411.
1. The Video Recordings Of Edwards’
Arrest Demonstrate A Fourth Amendment Violation
Under the first prong, the inquiry is as follows:
“[t]aken in the light most favorable to the party asserting the injury, do the facts alleged show the officer’s
conduct violated a constitutional right?” Saucier, 533
U.S. at 201. The facts here, as depicted in the several
video recordings of the October 25, 2016 incident,
demonstrate a brutalization of Edwards by the several
Defendants that was wholly outside the bounds of legitimate police activity and unwarranted by any standard. A disoriented Edwards was smashed against his
car, had his arms twisted, thrown to the ground and
piled on by the Defendants despite his attempts to
comply with their requests to investigate the matter
and take him into custody. While on the ground, Edwards face and body were shoved into the pavement by
the officers with their bodies and knees, he was
punched numerous times in the rib area, he was put in
a chokehold, he was tasered, and was struck additional
times with a fist and an object wielded by one of the
officers.
As shown by the video recordings, the force used
by the Defendants upon Edwards was plainly excessive and unreasonable in violation of his rights under

57a
the Fourth Amendment. The standard for excessive
force claims was established in Graham v. Connor, 490
U.S. 386, 397 (1990), which held that police may, in effecting the seizure of a person, only use that amount of
force which is reasonable under all the circumstances.
The “inquiry in an excessive force case is an objective
one: the question is whether the officers’ actions are
objectively reasonable in light of the facts and circumstances confronting them, without regard to underlying intent or motivation.” Id. at 388. “Reasonableness
is evaluated under a totality of the circumstances approach which requires that we consider the following
factors: ‘the severity of the crime at issue, whether the
suspect poses an immediate threat to the safety of the
officers or others, and whether he is actively resisting
arrest or attempting to evade arrest by flight.’ ” Weigel,
544 F.3d at 1151-52 (quoting Graham, 490 U.S. at 396).
In arguing that their use of force was reasonable
under the Graham test, the Defendants rely to a large
extent on the third Graham factor, asserting that Edwards actively resisted them throughout the encounter
and that this justified the violence they inflicted on Edwards. But review of the video recordings fail to corroborate the contentions of the Defendants regarding
resistance. Instead, the video shows that Edwards
complied, albeit unsteadily and with difficulty due to
his inebriated condition, to the officers requests to put
down objects and to exit his vehicle. Yet the officers
suddenly resorted to aggressively physical behavior toward Edwards, wrenching his arm behind him, shoving his body and head onto the vehicle and eventually

58a
throwing him to the ground. Once on the ground, Edwards struggled to keep his face, head and body from
being ground into the pavement by the Defendants’
pushing and kneeing into his body. This struggle, along
with the manner in which Edwards’ shirt was lifted up
over his head, prevented Edwards from putting his
hands behind his back as the Defendants demanded.
The circumstances here and depictions on the
video are not unlike the situation presented in Estate
of Booker v. Gomez, supra, in which police officers were
sued for excessive force in subduing an arrestee in a
manner that caused the arrestee’s death from asphyxia. In claiming qualified immunity from the
claims of the arrestee’s estate, the defendant officers
presented affidavits that the arrestee had resisted
attempts to place him in a holding cell and that this
resistance justified the level of force used. However,
surveillance video of the incident was available and,
although the defendants asserted this supported their
claims of resistance, the court disagreed, ruling as follows:
Because our record review indicates the primary factual dispute in the district court was
Mr. Booker’s resistance, we must resolve this
dispute in the Plaintiffs’ favor on interlocutory review. Our analysis therefore accepts
Mr. Booker did not resist during the vast majority of the encounter. The Defendants argue
the video evidence belies this conclusion, but
they are mistaken. In fact, the video, which
shows Mr. Booker motionless on the floor
while the deputies subdue him, contradicts

59a
the Defendants’ assertion that Mr. Booker
consistently resisted them.
Estate of Booker, 745 F.3d at 414-15.
Similarly, the video recordings of Edwards arrest
do not plainly and unequivocally show that Edwards
resisted the officers, but instead show Edwards was
compliant with the officers’ requests and did not make
any hostile or threatening moves toward the police
before they became physically aggressive and threw
Edwards to the pavement. At this stage of the case, the
evidence must be viewed in Edwards’ favor and all
reasonable inference drawn in his favor. Id. at 411.
Viewing the evidence in this light, the objective reasonableness of the Defendants’ conduct must be judged
on the basis that Edwards did not resist the efforts to
arrest him. See also Choate v. Huff, 773 Fed. Appx. 484
(10th Cir. 2019) (police officers were not entitled to
summary judgment on excessive force claim for shooting where body camera video footage they relied on did
not blatantly contradict the plaintiff ’s version of the
events and fact question precluded granting officers’
qualified immunity defense).
Moreover, to the extent Edwards did not follow all
the directives that he was given by police, this should
not justify the brutal force used upon him by the Defendants for at least two other reasons. First, with respect to the orders Edwards was given to place his
hand behind his back, he was prevented from doing so
by the Defendants’ actions of throwing him to the
ground, pulling his shirt over his head, a forcing his

60a
head, face and body toward the pavement. In determining whether force police used was excessive and unreasonable, the officers’ own reckless or deliberate conduct
can be considered. Fogarty v. Gallegos, 523 F.3d 1147,
1159-60 (10th Cir. 2008). Second, any resistance by Edwards was minor and a natural response to being
thrown to the ground by the Defendants. The Defendants’ responsive force was wholly disproportionate
and excessive. See Chacon, 2015 WL 2018937 at *6
(whether plaintiff ’s action was active resistance and
was disproportionately minor in relation to the severity of force used by the officers, were fact questions
properly put to a trier of fact).
With respect to the offense under investigation,
the Defendants here were not faced with a particularly
serious situation. Edwards was found sitting peacefully in his car and appeared to be intoxicated. The Defendants saw no indication of a weapon on or about
Edwards. As indicated by Defendant Foreman, he
planned to arrest Edwards for being under the influence of a controlled substance. While being under the
influence is not a minor offense, it certainly is not so
serious an offense as to warrant the brutalization Edwards was subjected to as shown on the video recordings. See Casey v. City of Federal Heights, 509 F.3d
1278, 1281 (10th Cir. 2007) (where offenses plaintiff
was arrested for were not violent offenses, they were
not considered severe for purposes of weighing the
Graham factors).
As to the remaining factor, the video evidence
demonstrates that Edwards posed little immediate

61a
threat to the Defendants at the time they became
physically aggressive toward Edwards. Although the
Defendants rely on Edwards’ apparent intoxication as
showing he posed a danger, other factors mitigate any
threat he posed because of his condition. The video recordings demonstrate that Edwards was peaceful and
cooperative with police and made no threatening or
furtive gestures toward them. In Novitsky v. City of Aurora, 491 F.3d 1244, 1255 (10th Cir. 2007), the court
held that an intoxicated person posed a minimal threat
to police who seized him using a painful “twist lock”
hold under the circumstances of the encounter. “Mr.
Novitsky did not make any furtive movements in the
car. Moreover, Mr. Novitsky did not resist Officer
Wortham in any way; in fact, his demeanor was apparently benign, as he had begun to help himself out of the
car when the twist lock was applied.” Under these circumstances, any threat to the officers or the public was
mitigated and “[v]iewing these facts in the light most
favorable to Mr. Novitsky, as we must, we think a reasonable jury could conclude . . . that Officer Wortham’s
application of the twist lock for officer safety purposes
was unreasonable under the Fourth Amendment.” Id.
When all the circumstances are considered, particularly when viewed in the light most favorable to
Edwards, the force used by the Defendants was objectively unreasonable in violation of the Fourth Amendment. This is particularly apparent in light of the kinds
of force used against Edwards, some of which was applied after Edwards was restrained and in the control
of the police. Thus, the video recordings indicate, and

62a
Defendants have admitted that Edwards was subjected to chokeholds in the course of his arrest. In Estate of Booker, 745 F.3d at 425, the court wrote that
[c]ourts from various jurisdictions have held
the use of such force on a non-resisting subject
to be excessive. See United States v. Livoti, 196
F.3d 322, 327 (2d Cir.1999) (upholding excessive force verdict where officer put victim in
choke hold for one minute to render victim unconscious, and where department prohibited
such holds); Valencia v. Wiggins, 981 F.2d
1440, 1447 (5th Cir.1993) (upholding district
court’s determination that the defendants’ use
of a “choke hold and other force . . . to subdue
a non-resisting [detainee] and render him
temporarily unconscious” constituted excessive force under the Due Process Clause);
Papp v. Snyder, 81 F.Supp.2d 852, 857 (N.D.Ohio
2000) (denying qualified immunity where jury
could conclude that officer used a choke hold
and carotid hold when the victim was restrained by others and handcuffed); McQurter
v. City of Atlanta, Ga., 572 F.Supp. 1401, 1414
(N.D.Ga.1983) (use of chokehold was “excessive and malicious” when used after victim
was “manacled” and “effectively restrained”),
abrogated on other grounds by Budinich v.
Becton Dickinson & Co., 486 U.S. 196, 108
S.Ct. 1717, 100 L.Ed.2d 178 (1988).
That decision also cited to Gouskos v. Griffith, 122 Fed.
App. 965, 976 (10th Cir. 2005), where the court reversed a grant of qualified immunity where the plaintiff submitted evidence that an officer put “him in a

63a
chokehold and chok[ed] him almost to unconsciousness
when he was already on the ground, he was exclaiming
that he was not resisting, and three other officers
were sitting on him, holding his legs, and handcuffing
him. . . . ”
Edwards also was forced into the pavement by the
Defendants with a knee to the back and the full force
of the officer upon Edwards’ prone body. This technique
also has been condemned as excessive under similar
circumstances. In Weigel v. Broad, supra, the court upheld an excessive force claim against officers who subdued an arrestee by using one or two knees to pin the
arrestee to the ground, resulting in asphyxiation and
death of the arrestee. The court upheld the trial court’s
conclusion that an objectively reasonable police officer
would not have continued to apply pressure to the arrestee’s upper torso after he was subdued and no
longer a threat. Weigel, 544 F.3d at 1152. Similarly, in
Estate of Booker, 745 F.3d at 429, the court found that
the use of this technique upon a non-resisting, subdued
suspect constitutes excessive force in violation of the
Fourth Amendment. Finally, the use of the taser upon
Edwards also was objectively unreasonable. Under
prevailing Tenth Circuit authority, “it is excessive to
use a Taser to control a target without having any reason to believe that a lesser amount of force—or a verbal
command—could not exact compliance.” Casey, 509
F.3d at 1286. If a reasonable jury could conclude that a
lesser degree of force would have exacted compliance
and that this use of force was disproportionate to the
need, then summary judgment must be denied to

64a
police claiming qualified immunity. See Cavanaugh v.
Woods Cross City, 625 F.3d 661, 665 (10th Cir.2010)
(use of taser unconstitutional where jury could “conclude that [the victim] did not pose an immediate
threat” to officer or others and where victim was not
actively resisting).
Considering that Edwards was subjected to all
these serious applications of violence and force, it can
only be concluded that he was a victim of excessive
force in violation of the Fourth Amendment. See Estate
of Booker, 745 F.3d at 427. Therefore, Edwards has satisfied the first prong of the applicable test when qualified immunity is raised.
2. The Defendants’ Use Of Force Violated Clearly Established Law
In their motion for summary judgment, the Defendants argue “there must be a Supreme Court or Tenth
Circuit decision on point, or a clearly established
weight of authority from other courts for the law to be
clearly established.” (Doc. 54, at 15). However, this is
not the qualified immunity test applied in this Circuit,
particularly in excessive force cases.
In Casey, 509 F.3d at 1284, the court held that because excessive force jurisprudence requires an allthings-considered inquiry with careful attention to the
facts and circumstances of each particular case, “there
will almost never be a previously published opinion involving exactly the same circumstances. We cannot
find qualified immunity wherever we have a new fact

65a
pattern.” Indeed, “[t]he plaintiff is not required to show,
however, that the very act in question previously was
held unlawful in order to establish an absence of qualified immunity.” Weigel, 544 F.3d at 1153.
Instead, the Tenth Circuit has “adopted a sliding
scale to determine when law is clearly established.
‘The more obviously egregious the conduct in light of
prevailing constitutional principle, the less specificity
is required from prior case law to clearly establish the
violation.’ . . . Thus, when an officer’s violation of the
Fourth Amendment is particularly clear from Graham
itself, we do require a second decision with greater
specificity to clearly establish the law.” Casey, 509 F.3d
at 1284 (quoting Pierce v. Gilchrist, 359 F.3d 1279, 1298
(10th Cir. 2004). Accord Estate of Booker, 745 F.3d at
427.
Applying either this test or the standard set forth
in the Defendants’ motion that the violative nature of
particular conduct is clearly established, Mullinex v.
Luna, 136 S. Ct. 305 (2015), it is plain that the Defendants claim to qualified immunity should be denied.
Again, the decision in Estate of Booker, 745 F.3d at 42829,3 is highly instructive. In ruling that police officers
were not entitled to qualified immunity on excessive
force claims which involved the use of a choke hold,
pressure on the back of the arrestee, and a taser, the
3

Although Estate of Booker technically involved a due process excessive force claim, the Tenth Circuit made clear that the standards of reasonableness it was applying also applied to Fourth
Amendment excessive force claims. Estate of Booker, 745 F.3d at
428.

66a
court found that, by virtue of prior case law, the defendants were “on notice that use of such force on a person
who is not resisting and who is restrained in handcuffs
is disproportionate.” Id. Where the police applied disproportionate force while the arrestee was prone on his
stomach and not resisting, they had violated clearly established law and were not entitled to summary judgment on their qualified immunity defense. Id. See also
Lundstrom v. Romero, 616 F.3d 1108, 1127 (10th Cir.
2010) (it is clearly established that Graham’s reasonableness standard is violated if there were not substantial grounds for a reasonable officer to believe there
was legitimate justification for acting as he did).
The tactics and methods employed by the Defendants against Edwards were clearly excessive, disproportionate and objectively unreasonable under the
circumstances the Defendants confronted, and case
law specifically addressed the unconstitutional nature
of the force employed by the Defendants. Moreover, the
video recordings of the incident depict particularly
egregious conduct on the part of the Defendants in brutalizing Edwards using choke holds, punches to Edwards’ body, tasering, and knees to his back. That each
of these tactics has been found to be excessive and unreasonable as to a prone, subdued arrestee means that
the Defendants were on notice that their combined use
of them against Edwards was a violation of the Fourth
Amendment. Because the Defendants’ actions violate
clearly established law, they are not entitled to summary judgment on the basis of qualified immunity.

67a
The Plaintiff requests this Court deny the Defendants’
Motion.
Respectfully submitted,
s/ Andrea L. Worden
Worden Law Firm
OBA #21414
109 E. Tonhawa St. #100
Norman, OK 73069
P: (405) 360-8036
F: (888) 271-2384
aworden@wordenfirm.com

CERTIFICATE OF SERVICE
I hereby certify that on October 28, 2019, I electronically transmitted the foregoing document to the Clerk
of Court using the ECF System for filing and transmittal of a Notice of Electronic Filing to all ECF registrants who have appeared in this case.
s/ Andrea L. Worden

